<html>
<title> - FRANK R. WOLF INTERNATIONAL RELIGIOUS FREEDOM ACT OF 2015; AND CALLING FOR THE RELEASE OF UKRAINIAN FIGHTER PILOT NADIYA SAVCHENKO</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                 FRANK R. WOLF INTERNATIONAL RELIGIOUS
                  FREEDOM ACT OF 2015; AND CALLING FOR
                 THE RELEASE OF UKRAINIAN FIGHTER PILOT
                            NADIYA SAVCHENKO

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 1150 and H. Res. 50

                               __________

                             APRIL 15, 2015

                               __________

                           Serial No. 114-62

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
94-187PDF                 WASHINGTON : 2015                    
                 
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91f6e1fed1f2e4e2e5f9f4fde1bff2fefcbf">[email&#160;protected]</a>  

                                
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1150, To amend the International Religious Freedom Act of 
  1998 to improve the ability of the United States to advance 
  religious freedom globally through enhanced diplomacy, 
  training, counterterrorism, and foreign assistance efforts, and 
  through stronger and more flexible political responses to 
  religious freedom violations and violent extremism worldwide, 
  and for other purposes.........................................     3
H. Res. 50, Calling for the release of Ukrainian fighter pilot 
  Nadiya Savchenko, who was captured by Russian forces in Eastern 
  Ukraine and has been held illegally in a Russian prison since 
  July 2014......................................................    46
  Amendment to H. Res. 50 offered by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New 
    Jersey, and chairman, Subcommittee on Africa, Global Health, 
    Global Human Rights, and International Organizations.........    49

                                APPENDIX

Markup notice....................................................    54
Markup minutes...................................................    55
Markup summary...................................................    56
The Honorable Christopher H. Smith:
  Prepared statement on H. Res. 50...............................    57
  Letter from the United States Conference of Catholic Bishops in 
    support of H.R. 1150.........................................    58
  Letter from the International Religious Freedom Roundtable in 
    support of H.R. 1150.........................................    59


                 FRANK R. WOLF INTERNATIONAL RELIGIOUS.
                  FREEDOM ACT OF 2015; AND CALLING FOR.
                    THE RELEASE OF UKRAINIAN FIGHTER.
                         PILOT NADIYA SAVCHENKO

                              ----------                              


                       WEDNESDAY, APRIL 15, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. The 
subcommittee meets pursuant to notice to mark up H.R. 1150, the 
Frank Wolf International Religious Freedom Act, and H. Res. 50, 
calling for the release of Ukrainian fighter pilot Nadiya 
Savchenko who was captured by Russian forces in eastern Ukraine 
and has been held illegally in a Russian prison since July 
2014. One measure is introduced by a Republican, the other is 
sponsored by a Democrat. Both measures enjoy bipartisan support 
as is typical of the cooperation which characterizes both this 
subcommittee and our full committee.
    H.R. 1150 is named after our dear friend and colleague for 
many years, Congressman Frank Wolf, who retired last year after 
34 years of distinguished service. Some 10 Democrats have 
signed on as cosponsors of the bill, and the lead cosponsor of 
the bill is Anna Eshoo and I have introduced it. We have 80 
total sponsors of the bill and the number is growing by the 
day. Likewise, 10 Republicans have cosponsored Congressman 
Sander Levin's resolution, I among them and in a few minutes I 
will say a few words why.
    Due to the strong bipartisan support for both measures the 
fact that this is, the subcommittee will reconvene following 
this markup for a hearing on neglected tropical diseases as 
well as scheduling of other events, it is the intent of the 
chairman to consider these measures en bloc which I understand 
Ranking Member Bass has graciously consented to and Mr. 
Cicilline, I think, will concur with that.
    All members have copies of these documents before them, and 
then after we have concluded our expedited consideration I 
would be glad to recognize any member including myself and the 
ranking member or any member of the subcommittee for 
statements. All members are given leave to insert written 
remarks into the record should they choose to do so.
    Seeing that we have a reporting quorum present, without 
objection the following are considered as read and will be 
considered en bloc: H.R. 1150, the Frank Wolf International 
Religious Freedom Act; H. Res. 50 calling for the release of 
Ukrainian fighter pilot Nadiya Savchenko who was captured by 
Russian forces in eastern Ukraine and has been illegally held 
in a Russian prison since July 2014; and Smith Amendment 31 to 
H. Res. 50 sent to your offices on Tuesday of this week.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Smith. I move that the bill, resolution, and amendment 
en bloc be adopted. All those in favor say aye.
    All those opposed say no.
    The ayes have it, and in the opinion of the Chair all the 
items considered en bloc are adopted. Without objection, the 
measures as amended are reported favorably to the full 
committee and the staff is directed to make technical and 
conforming changes.
    I would like to now note that we have completed our formal 
consideration of these measures and will recognize members for 
remarks. And I recognize myself on behalf of the first bill, 
the Frank Wolf International Religious Freedom Act.
    Fifteen years ago, Congress had the foresight to make the 
advancing of religious freedom U.S. foreign policy and a 
priority. It wasn't easy to pass the International Religious 
Freedom Act of 1998. I actually was the one who held all of the 
hearings on that bill and frankly it was a very tough sell. 
There were people in the administration and Congress who 
opposed it. But there was a broad coalition that came together 
to support the bill, bipartisan, ecumenical and inclusive of 
foreign policy experts that made the difference.
    The International Religious Freedom Act of 1998 was 
authored by Congressman Frank Wolf, and it is largely because 
of his efforts that international religious freedom is taken 
seriously as a foreign policy issue. But Frank, though 
prophetic, was not omniscient. The bill we passed 15 years ago 
needs to be updated to match the new challenges of the 21st 
century and that is what we are doing today with this bill, the 
Frank Wolf International Religious Freedom Act of 2015.
    We honor the author of the landmark International Religious 
Freedom Act of 1998 by upgrading the tools, training and 
resources used by the administration to advance this 
fundamental human right. The need to advance religious freedom 
globally is more important now than ever. From Beijing to 
Burma, Nigeria to Syria to Pakistan and beyond, the need to 
protect religious minorities, mitigate sectarian violence and 
government restrictions, and counter radicalism and extremism 
are critical priorities for U.S. foreign policy.
    We see daily headlines of beheadings, kidnappings, mob 
attacks, and arrests carried out by ISIS, al-Shabaab, Boko 
Haram and many other groups. Ugly incidents of anti-Semitism 
are also increasing globally, even in supposedly tolerant 
Europe. According to the Pew Research foundation, government 
restrictions on the freedom of religion are at a 7-year high.
    A robust religious freedom diplomacy is necessary to 
advance our Nation's interest in the stability, security, and 
economic development of countries we engage with around the 
globe. Research shows that where there is more religious 
freedom there is more economic freedom, more women's 
empowerment, more political stability. Countries that protect 
religious minorities find greater levels of social harmony, a 
healthy civil society, and economic prosperity.
    Spreading respect for religious freedom is the ultimate 
weapon against terrorism and societal violence and preemptively 
undermines religious extremism. History also has shown that 
when the U.S. makes religious freedom a priority in bilateral 
relations conditions change without harm to security interests 
or economic cooperation. In addition, countless numbers of 
religious freedom advocates have benefited from U.S. religious 
freedom diplomacy finding freedom, lesser jail sentences or an 
end to torture. That fact alone should prick our consciences to 
act.
    The Frank Wolf International Religious Freedom Act will 
upgrade the IRFA of 1998 to better address a growing religious 
persecution globally and help the administration and State 
Department to better respond to violent extremism globally as 
well. The bill will among many other things better train and 
equip diplomats to counter terrorism, address anti-Semitism, 
which is on a huge rise not just around the world but also in 
the United States but particularly in the Middle East, end 
religious persecution and mitigate sectarian conflict. It gives 
those tools by enhancing the position of the Ambassador-at-
Large for International Religious Freedom now currently held by 
the distinguished Rabbi David Saperstein, creating a tier 
system for the International Religious Freedom Report's of 
Countries of Particular Concern, and creating a new special 
watch list similar to the tier system we use in the Trafficking 
in Persons Report.
    As the author of the Trafficking Victims Protection Act we 
have seen, I think, beyond any reasonable doubt by having a 
list, a watch list, we're able to put on notice those countries 
that should be or are close to being a CPC or Country of 
Particular Concern and so that we can begin working 
diplomatically to prioritize those countries.
    The bill requires annual designations and actions of 
countries with severe religious persecution or freedom issues, 
allows the President to designate nonviolent, non-state actors, 
and that's new, as well, as severe violators of international 
religious freedom, and gives him the statutory authority to 
sanction individuals responsible for committing those 
violations, expands diplomatic training, counterterrorism 
coordination and foreign assistance efforts to advance 
religious freedom.
    The bill also reauthorizes the U.S. Commission on 
International Religious Freedom, or USCIRF, until 2021 with the 
same language passed unanimously last year in the House. 
Despite strong bipartisan support in the House for USCIRF 
reauthorization, it did get bogged down in the Senate but it 
was finally reauthorized and the legislation was signed by the 
President for 1 year.
    Finally I want to thank Anna Eshoo for being the original 
Democratic sponsor of this bill along with myself and now as I 
have said 80 other Members who have joined. Her advocacy on 
behalf of religious minorities in the Middle East has been 
laudable and important and critical. Ancient Christian 
communities and adherents to other esteemed faiths such as the 
Yazidis are being decimated by ISIS, and I deeply value her 
partnership on this legislation and admire her commitment to 
the cause of all those oppressed for the beliefs that they 
hold.
    Without objection I will add my comments on Sander Levin's 
measure to the record in the interest of time, and will yield 
to Mr. Cicilline for any comments he might have.
    Mr. Cicilline. Thank you Mr. Chairman. I would like to 
begin by thanking you and Ranking Member Bass for your 
continued advocacy on important human rights issues and for 
holding this markup today. I particularly want to acknowledge 
you, Mr. Chairman, for your many, many years of leadership on 
the issue of religious freedom.
    International religious freedom is vitally important and we 
need to commit the necessary resources to protect it. All 
individuals have the right to choose and practice the religion 
or belief of their choice alone or in a community with others 
without persecution, discrimination or fear of violence, and 
that is why I supported the passage of H.R. 1150 through the 
subcommittee today even though there are still some issues that 
I believe must be thoughtfully addressed.
    I understand that the administration has some concerns 
about the text in a number of areas including changes to 
internal State Department structure, reauthorization of the 
United States Commission on International Religious Freedom 
without important reforms, and potential drains on democracy 
funding of other important programs. It is also important to 
remember that we had trouble moving the reauthorization of the 
United States Commission on International Religious Freedom 
last Congress in part because the Senate wanted to see some 
specific reforms included. I hope we can address some of these 
concerns as this legislation moves forward and before a markup 
at the full committee level.
    I look forward to working together with you, Chairman 
Smith, my other colleagues in the State Department, to develop 
final legislation that achieves our shared goals of protecting 
religious freedom, maintains our support for other important 
human rights concerns, and enjoys broad support.
    I also supported the resolution today regarding the 
imprisonment of Nadiya Savchenko. We continue to see tension 
and reports of aggression between Russia and Ukraine and it 
will take a tremendous amount of work and evidence of a 
profound change in Russian behavior before these two countries 
can truly coexist peacefully, and indeed before the United 
States and Russia can build a productive bilateral 
relationship.
    The United States must continue to call out all of Russia's 
lawless actions, and the imprisonment of Nadiya Savchenko 
defies a basic respect for due process and human rights and 
Russia should release her and other illegally detained people 
immediately.
    I thank you again Mr. Chairman for bringing these bills 
before the subcommittee and look forward to continuing to work 
with you on both of these issues and hope that we can bring 
them to the full committee for passage onto the House floor. 
And we thank you.
    Mr. Smith. Thank you so very much Mr. Cicilline. Again 
without objection I will make my statement on H. Res. 50 part 
of the record. This markup is concluded.
    [Whereupon, at 2:33 p.m., the subcommittee proceeded to 
other business.]
                                     

                                     

                            A P P E N D I X

                              ----------  
                                
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
